                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

     Case Number: A05020003                                                                  Page 1 of 1


                                     /



          We received an allegation that an individual using an official NSF email address' had sold an
          item on Amazon Marketplace using his official email address as his point of contact. The
          Complainant brought this to NSF's attention because of a concern that this might be more than
          an isolated incident.

          We reviewed the documentation presented by the complainant: and confirmed that the email
          address at issue belongs to an NSF c~ntractor.~  We opened an A-case to investigate how often
          the contractor uses his government equipment to sell items for personal profit, and whether his
          actions violated NSF Bulletin No. 04-11, "Personal Use Policy for NSF Technology and
          Communication Resources," which was in effect at the time that the sale was made and is
          applicable to "all NSF personnel, contractors, and visitors who have access to NSF equipment,
          computing services, or communication systems."

          We learned that the Subject was not selling these items as part of a business. In addition, we
          learned that the majority of the Subject's sales activity did not occur using his government
          computer, and that his work email address was only inadvertently used as his seller's point of
          contact. Moreover, the Subject has corrected the situation by changing his seller's point of
          contact on Amazon Marketplace to his home email account. Finally, the Subject was familiar
          with NSF's personal use policy and demonstrated complete remorse for using his NSF einail
          address asphis seller point of contact.

          Accordingly, this case is closed.




I'
NSF OIG Form 2 (1 1/02)
